                                    Closeout for MOO030011

     On February 10, 2000,                          ) told us a PI2 had made
allegations of plagiarism in connection with his submitted proposal. 3 The PI alleged
some foreign competitors plagiarized his work (subject l,4 subject 2,5 subject 36).
      I n conversations with the PI, he explained that he was not only upset about
the alleged plagiarism, but also that his ideas had been used by foreign competitors
to obtain funding from foreign sources, while his attempts to receive NSF funding
with these ideas had been unsuccessful. He said he thought if we could establish
that the plagiarism had occurred, it would increase his probability of receiving
funding from NSF. Additionally, he was concerned about how NSF's review process
accounted for PIS a t smaller universities and how reviewers were selected.'
      We checked NSF's database and could find none of the subjects listed; thus,
they have not submitted proposals to, or received funds from, NSF. Therefore, we
lack jurisdiction to pursue this allegation. This inquiry is closed and no further
action wlll be taken on this case.

cc: Integrity, IG




         (footnote redacted).
      2  (footnote redacted).
       3 (footnote redacted).
       4 (footnote redacted).
       5 (footnote redacted).
       6 (footnote redacted).
       7 We passed the PI'S programmatic concerns along to the PO. Additionally, we informed the PI
that if was still not satisfied about the review process, he should speak with the Division's Executive
Officer.


                                             Page 1 of 1                                       MOO-11
